                                              OCCUPATIONAL SAFETY AND
                                              HEALTH ADMINISTRATION


Office of Inspector General—Office of Audit




                                              WHISTLEBLOWER PROTECTION PROGRAM
                                              COMPLAINT




                                                                 Date Issued:     March 31, 2011
                                                              Report Number:    02-11-202-10-105
U.S. Department of Labor                                      March 2011
Office of Inspector General
Office of Audit
                                                              WHISTLEBLOWER PROTECTION PROGRAM
                                                              COMPLAINT

BRIEFLY…
Highlights of Report Number 02-11-202-10-105, to the          WHAT OIG FOUND
Assistant Secretary for Occupational Safety and Health.       OSHA did not conduct proper investigations of the
                                                              whistleblower complaints filed by the complainant. As a
                                                              result, it could not provide any assurance that the
WHY READ THE REPORT                                           complainant was protected as intended under Federal
OSHA is responsible for enforcing and administering           whistleblower laws.
the whistleblower protection provisions of 21 Federal
statutes, including AIR21. The AIR21 statute protects         OSHA failed to establish a basis for conducting its
employees of air carriers from retaliation for having         investigations in that it did not adequately document a
disclosed information to their employer or to the             logical reason for employer coverage under AIR21 or
government concerning “any violation or alleged               document a specific activity that would have afforded
violation of any order, regulation or standard of the         the complainant protection under AIR21. Once OSHA
Federal Aviation Administration or any other provision        proceeded with it field investigations, it did not follow its
of Federal law relating to air carrier safety...”             own policies and procedures. Moreover, it exceeded its
                                                              authority by dismissing one complaint without
Effective administration of the whistleblower program is      conducting any sort of investigation.
integral to OSHA’s core mission. If workers believe the
system established by OSHA adequately protects them           These findings were consistent with our September
from retaliation, they will be more willing to report         2010 report entitled, “Complainants Did Not Always
violations. Likewise, if employers believe they will suffer   Receive Appropriate Investigations Under the
financial consequences for retaliating against                Whistleblower Protection Program,” which revealed
whistleblowers, they will be less likely to do so.            pervasive and systemic weaknesses in the program.



WHY OIG CONDUCTED THE AUDIT                                   WHAT OIG RECOMMENDED
The Honorable Edolphus Towns, then Chairman of the            OSHA agreed with the recommendations we made in
Committee on Oversight and Government Reform,                 our prior report and is taking corrective actions. We also
requested that we conduct a review into allegations that      recommend the Assistant Secretary for Occupational
OSHA “did not conduct a proper investigation and              Safety and Health implement controls to ensure that
wrongfully dismissed a case or cases relating to Mr.          supervisors review all complaints for coverage and the
Terry Wallum [complainant], a former employee of Bell         presence of a prima facie allegation prior to beginning
Helicopter Textron (Bell-Textron), who allegedly was          an investigation.
retaliated against by his employer for reporting a wide
variety of wrongdoing, including reporting air safety         In response to our draft report, the Assistant Secretary
violations under [AIR21].”                                    for Occupational Safety and Health stated that OSHA is
                                                              committed to improving the whistleblower protection
In order to address these concerns, we conducted an           program and intends to implement the recommendation
audit to answer the question: Did OSHA conduct proper         by requiring supervisory review of complaints during the
investigations of the whistleblower complaints filed by       intake process. OSHA is also in the process of finalizing
the complainant?                                              a top-to-bottom audit of the whistleblower program
                                                              which it says will address the weaknesses and
                                                              inefficiencies in the program and incorporate the results
READ THE FULL REPORT                                          of our prior audit.
To view the report, including the scope, methodology,
and full agency response, go to:
http://www.oig.dol.gov/public/reports/oa/2011/02-11-
202-10-105.pdf.
             U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK 





                                   OSHA Whistleblower Complaint
                                    Report No. 02-11-202-10-105
                                                             U.S. Department of Labor – Office of Inspector General




Table of Contents 


Assistant Inspector General’s Report ......................................................................... 1


Results In Brief .............................................................................................................. 2


Objective — Did OSHA conduct proper investigations of the whistleblower 

complaints filed by the complainant? ......................................................................... 3

         OSHA failed to establish a basis for conducting its investigations and did 

         not conduct proper investigations ......................................................................... 3


         Finding 1 — OSHA failed to establish a basis for conducting its 

            investigations .................................................................................................. 3

         Finding 2 — OSHA did not follow its own policies and procedures during 

            its investigations.............................................................................................. 5


Recommendations ...................................................................................................... 10


Exhibit
         Exhibit Whistleblower Complaint Details ............................................................ 13


Appendices
         Appendix A Background ..................................................................................... 17

         Appendix B Objective, Scope, Methodology, and Criteria .................................. 19

         Appendix C Acronyms and Abbreviations .......................................................... 21

         Appendix D OSHA Response to Draft Report .................................................... 23

         Appendix E Acknowledgements ......................................................................... 25





                                                                                          OSHA Whistleblower Complaint
                                                                                           Report No. 02-11-202-10-105
             U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK 





                                   OSHA Whistleblower Complaint
                                    Report No. 02-11-202-10-105
                                           U.S. Department of Labor – Office of Inspector General



U.S. Department of Labor                 Office of Inspector General
                                         Washington, D.C. 20210




March 31, 2011

                        Assistant Inspector General’s Report



David Michaels, PhD, MPH
Assistant Secretary of Labor for
  Occupational Safety and Health
U.S. Department of Labor
200 Constitution Ave., NW
Washington, D.C. 20210


The Occupational Safety and Health Administration (OSHA) is responsible for enforcing
and administering the whistleblower protection provisions of 21 federal statutes,
including the Wendell H. Ford Aviation Investment and Reform Act for the 21st Century
(AIR21).

The Honorable Edolphus Towns, then Chairman of the Committee on Oversight and
Government Reform, requested that we conduct a review into allegations that OSHA
“did not conduct a proper investigation and wrongfully dismissed a case or cases
relating to Mr. Terry Wallum [complainant], a former employee of Bell Helicopter Textron
(Bell-Textron), who allegedly was retaliated against by his employer for reporting a wide
variety of wrongdoing, including reporting air safety violations under [AIR21].”

In order to address these concerns, we conducted an audit to answer the question:

      Did OSHA conduct proper investigations of the whistleblower complaints filed by
      the complainant?

The audit covered three AIR21 whistleblower complaints filed with OSHA from
September 2005 through May 2009 (see Exhibit for details related to each complaint).
The audit was limited to the investigations conducted by OSHA; we did not review any
matters related to appeals filed with the Office of Administrative Law Judges (OALJ) or
the Administrative Review Board (ARB), nor did we test the appropriateness of OSHA’s
determinations with respect to the three complaints. As such, our work should not be
construed as a comment on the merits of any of the complaints.

To accomplish our objective, we obtained an understanding of applicable laws,
regulations, and OSHA policies and procedures governing AIR21 whistleblower
investigations; reviewed the investigative case files for the three complaints; reviewed
documentation provided by the Honorable Edolphus Towns, Pamela Wallum

                                                                       OSHA Whistleblower Complaint
                                             1                          Report No. 02-11-202-10-105
                                           U.S. Department of Labor – Office of Inspector General



(complainant’s widow), and OSHA’s Regional Office in Dallas, Texas. We also
interviewed OSHA management from the National Office and Dallas Regional Office
and the complainant’s widow. Field work was conducted at OSHA’s headquarters in
Washington, D.C. We conducted this performance audit in accordance with generally
accepted government auditing standards. Our objective, scope, methodology, and
criteria are detailed in Appendix B.

RESULTS IN BRIEF

OSHA did not conduct proper investigations of the whistleblower complaints filed by the
complainant. It failed to establish a basis for conducting the investigations and did not
follow its own policies and procedures during the investigations. As a result, it cannot
provide any assurance that the complainant was protected as intended by Federal
whistleblower laws.

OSHA failed to establish a basis for conducting its investigations. In each investigation,
OSHA asserted that the employer, Bell-Textron, was covered under AIR21 but it never
adequately documented a logical reason for that coverage. Additionally, OSHA
conducted an investigation into the first complaint without documenting a specific
activity that would have afforded the complainant protection under AIR21.

Once OSHA proceeded with its field investigations, it did not follow its own policies and
procedures. OSHA never conducted a formal interview with the complainant to detail his
allegations and obtain a signed statement; never adequately corroborated Bell-
Textron’s defenses to the complainant’s allegations; never allowed the complainant an
adequate opportunity to refute Bell-Textron’s defenses; and never conducted a closing
conference with the complainant. There was also no evidence that any of the
investigations were adequately supervised. Moreover, OSHA exceeded its authority by
dismissing the third complaint without conducting any sort of investigation.

These findings were consistent with our September 2010 report entitled, “Complainants
Did Not Always Receive Appropriate Investigations Under the Whistleblower Protection
Program,” which revealed pervasive and systemic weaknesses in the program. In that
report we found OSHA was not following its policies and procedures in 77 percent of the
investigations it conducted. The report’s recommendations addressed those
weaknesses in OSHA’s internal controls.

OSHA agreed with the recommendations we made in our prior report and is taking
corrective actions. We will continue to follow up with OSHA regarding its implementation
plans. We also recommend the Assistant Secretary for Occupational Safety and Health
implement controls to ensure that supervisors review all complaints for coverage and
the presence of a prima facie allegation prior to beginning an investigation.

In response to our draft report, the Assistant Secretary for Occupational Safety and
Health stated that OSHA is committed to improving the whistleblower protection
program and intends to implement the recommendation by requiring supervisory review

                                                                 OSHA Whistleblower Complaint
                                             2                    Report No. 02-11-202-10-105
                                            U.S. Department of Labor – Office of Inspector General



of complaints during the intake process. OSHA is also in the process of finalizing a top-
to-bottom audit of the whistleblower program which it says will address the weaknesses
and inefficiencies in the program and incorporate the results of our prior audit.

The Assistant Secretary’s response is included in its entirety as Appendix D.


RESULTS AND FINDINGS

Objective — Did OSHA conduct proper investigations of the whistleblower
            complaints filed by the complainant?

       OSHA failed to establish a basis for conducting its investigations and did not
       conduct proper investigations

Finding 1 — OSHA failed to establish a basis for conducting its investigations

In each investigation, OSHA asserted that the employer, Bell-Textron, was covered
under AIR21, but never adequately documented a logical reason for that coverage.
Additionally, OSHA conducted an investigation into the first complaint without
documenting a specific activity that would have afforded the complainant protection
under AIR21. This occurred because OSHA did not require supervisors to review
complaints for coverage and the presence of a prima facie allegation prior to beginning
an investigation. As a result, OSHA had no assurance that the complainant was ever
entitled to protection under Federal whistleblower statutes.

Employer Coverage Under AIR21

OSHA’s Final Investigation Reports (FIR) indicated that Bell-Textron was covered under
AIR21 because it operated under a certificate from the Federal Aviation Administration
(FAA); and therefore, it relied on the FAA to carry out its duties. However, OSHA never
documented why that meant that Bell-Textron was an “air carrier or contractor or
subcontractor of an air carrier” as required by AIR21.

AIR21 provides whistleblower protection to employees of an “air carrier or contractor or
subcontractor of an air carrier.” The statute defines “contractor” as “a company that
performs safety-sensitive functions by contract for an air carrier.”

The OSHA Whistleblower Investigations Manual states: “When initially receiving the
whistleblower case, it is important to confirm that the complaint … is covered under one
of the whistleblower statutes OSHA investigates.”

Although Bell-Textron cooperated with OSHA’s investigation, it stated in its initial written
position paper that it was not covered under AIR21 and OSHA had no jurisdiction over




                                                                  OSHA Whistleblower Complaint
                                             3                     Report No. 02-11-202-10-105
                                                        U.S. Department of Labor – Office of Inspector General



it. The company maintained this position during the complainant’s subsequent
complaints and appeals 1 .

According to an email from the complainant to the Regional Supervisory Investigator
(RSI), the complainant had questioned the investigator about the agency’s jurisdiction
and the investigator responded that she felt she could find a reason for proceeding with
the case.

Although the OSHA Whistleblower Investigations Manual stresses the importance of
confirming that a complaint is covered under one of the whistleblower statutes OSHA
investigates, there were no policies or procedures requiring a supervisor to review a
case for coverage prior to conducting an investigation.

Regional Office management acknowledged this issue and indicated that the region has
started to conduct weekly conference calls to discuss the technical aspects of different
whistleblower statutes with the investigators because some investigators were not
technically proficient with the requirements of the newer statutes that OSHA has been
charged with enforcing. The Region has also improved its working relationship with the
Regional Solicitor of Labor (RSOL) so that they can get more rapid and definitive advice
when faced with legal issues. The RSOL has also provided training during the weekly
conference calls.

Complainant’s Protected Activity

The complainant, in his initial written complaint, alleged that he was threatened and
intimidated for reporting improper work procedures but he did not cite any specific
safety violations or Federal laws that may have been violated.

During a screening interview with OSHA, the complainant provided additional
information about his safety complaints, such as: supervisors stamping off paperwork
instead of mechanics, unsafe housekeeping, foreign object debris, and hurried
inspections. However, none of these allegations was ever identified as a possible
violation of any order, regulation, or standard of the FAA or any other provision of
Federal law relating to air carrier safety.

In its determination letter, OSHA stated that the complainant reported “various aircraft
assemblies were being released during the manufacturing process without being
approved in accordance with Federal Air Regulations” and that “evidence indicates the
approval procedure is regulated by the FAA;” however, there was no evidence to
support either of these statements in the case file, nor was a specific Federal Air
Regulation cited.


1
  When the complainant appealed OSHA’s dismissals of his second and third complaints, the OALJ dismissed both
complaints after ruling that Bell-Textron was not a covered employer under AIR21. In response, the complainant
appealed the OALJ dismissal of his second complaint which, at the time of this report, is pending further review by
the ARB.

                                                                                  OSHA Whistleblower Complaint
                                                          4                        Report No. 02-11-202-10-105
                                            U.S. Department of Labor – Office of Inspector General



To further confuse matters, in 2008, OSHA indicated that this complaint was dismissed
because it appeared the issues raised in the complainant’s allegations were
“labor/management issues.”

AIR21 provides whistleblower protection to an employee who “provided … information
relating to any violation or alleged violation of any order, regulation, or standard of the
[FAA] or any other provision of Federal law relating to air carrier safety….”

The OSHA Whistleblower Investigations Manual states: “When initially receiving the
whistleblower case, it is important to confirm that the complaint is valid….” In order to be
considered a valid complaint, it must present a prima facie allegation (protected activity,
employer knowledge, adverse action and a nexus).

Although the OSHA Whistleblower Investigations Manual stresses the importance of
confirming that a complaint alleges a protected activity, there were no policies or
procedures requiring a supervisor to review a case for this information prior to
conducting an investigation.

Regional Office management acknowledged this issue and indicated that the Region
has been restructuring the whistleblower program so that the RSI now reviews all
whistleblower complaints for prima facie standing prior to beginning an investigation and
discusses cases with the investigators throughout the life of the investigations.

Finding 2 — OSHA did not follow its own policies and procedures during its
            investigations

Despite OSHA’s failure to establish a basis for its investigations into the complaints, it
proceeded with field investigations; however, during those investigations, OSHA did not
follow its own policies and procedures. OSHA never conducted a formal interview with
the complainant to detail his allegations and obtain a signed statement; never
adequately corroborated Bell-Textron’s defenses to the complainant’s allegations; never
allowed the complainant an adequate opportunity to refute Bell-Textron’s defenses; and
never conducted a closing conference with the complainant. There was also no
evidence that the investigations were adequately supervised. Moreover, OSHA
exceeded its authority by dismissing the third complaint without conducting any sort of
investigation.

These findings were consistent with our September 2010 report entitled, “Complainants
Did Not Always Receive Appropriate Investigations Under the Whistleblower Protection
Program,” which revealed pervasive and systemic weaknesses in the program. In that
report we found OSHA was not following its policies and procedures in 77 percent of the
investigations it conducted. The report’s recommendations addressed those
weaknesses in OSHA’s internal controls. OSHA agreed with the recommendations we
made in our prior report and is taking corrective actions. We will continue to follow up
with OSHA regarding its implementation plans.



                                                                  OSHA Whistleblower Complaint
                                              5                    Report No. 02-11-202-10-105
                                           U.S. Department of Labor – Office of Inspector General



Formal Interview With Complainant

OSHA never conducted a formal interview with the complainant to detail his allegations
and obtain a signed statement.

The Whistleblower Investigations Manual states that investigators will arrange to meet
with a complainant as soon as possible to interview and obtain a signed statement
detailing the complainant's allegations. Signed statements are highly desirable and
useful for purposes of case review, subsequent changes in the complainant's status,
possible later variations in testimony, and documentation for potential litigation.
Complainants should never be instructed to submit a statement without engaging in the
interview process.

There were no signed statements in the case files, nor any evidence that the
investigator conducted a formal interview with the complainant.

OSHA did conduct a screening interview with the complaint upon receipt of the first
complaint, but these types of interviews are used to determine whether an investigation
should be conducted. In this case, it resulted in a memo-to-file that lacked details that
would have been necessary to conduct a proper investigation. For example, the
complainant alleged that he was told if he reported items he would be fired, but the
individual who said that was not identified in the case file documentation.

The complainant, in the notes accompanying the documentation provided by the
Honorable Edolphus Towns, confirmed he was never interviewed by OSHA.

Regional Office management acknowledged this issue and indicated that investigators
have been directed to conduct face-to-face interviews with complainants when possible
and obtain complainant statements for every investigation.

Corroboration of Employer’s Defense

OSHA never adequately corroborated Bell-Textron’s defenses to the complainant’s
allegations.

The Whistleblower Investigations Manual states that assertions made in the employer’s
position statement do not constitute evidence, and generally, the investigator will still
need to contact the respondent to interview witnesses, review records, and obtain
documentary evidence, or further test the employer’s stated defense. The investigator
should interview all company officials who have known direct involvement in the case
and attempt to identify other persons (witnesses) at the employer’s facility who may
have knowledge of the situation.

There was no evidence in the case files (outside of what Bell-Textron provided in its
position papers) that the investigator reviewed records, obtained documentary
evidence, or further tested Bell-Textron’s stated defenses. Other than three interviews

                                                                 OSHA Whistleblower Complaint
                                            6                     Report No. 02-11-202-10-105
                                           U.S. Department of Labor – Office of Inspector General



conducted during the first investigation, there was also no evidence in the case files that
the investigator interviewed (or attempted to interview) any company officials with direct
involvement in the case, or attempted to identify any other persons or witnesses at Bell-
Textron who might have knowledge of the situation.

During the first investigation, the investigator interviewed a supervisor and two Defense
Contract Management Agency (DCMA) inspectors. Those interviews focused on safety
complaints made by the complainant and death threats the complainant alleged he
received from DCMA inspectors approximately two years prior to filing his whistleblower
complaint with OSHA. According to the FIR, other witnesses provided by the
complainant were not interviewed because the complainant only gave names of
managers in his area and it did not appear necessary to interview them because Bell-
Textron provided a lengthy position paper.

Regional Office management acknowledged this issue and indicated that investigators
now regularly make company visits to conduct on-site interviews. In addition, the Region
now conducts weekly conference calls where they discuss best practices for obtaining
relevant evidence at a facility and conducting quality interviews. Investigators have also
been coached on developing independent witnesses and investigative leads.

Complainant’s Opportunity to Refute

OSHA never allowed the complainant an adequate opportunity to refute Bell-Textron’s
defenses.

The Whistleblower Investigations Manual states that the investigator will contact the
complainant during the investigation to resolve any discrepancies or counter allegations
resulting from the investigator’s contact with the employer. A complainant should never
be instructed to submit a statement or fill out a questionnaire without engaging in the
interview process.

According to documentation in the case files, the investigator simply forwarded
Bell-Textron’s position papers to the complainant and asked him to submit rebuttals to
the company’s claims, which he provided in the form of notes annotating numerous
issues he had with statements Bell-Textron had made. There was no evidence that the
investigator ever discussed any issues with the complainant concerning Bell-Textron’s
position paper, the complainant’s rebuttal, or specific discrepancies between the two.

Regional Office management acknowledged this issue and indicated that since it began
restructuring the whistleblower program, cases have been returned to investigators if all
applicable leads are not pursued.

Closing Conference

OSHA never conducted a closing conference with the complainant.



                                                                 OSHA Whistleblower Complaint
                                             7                    Report No. 02-11-202-10-105
                                                       U.S. Department of Labor – Office of Inspector General



The Whistleblower Investigations Manual states that the investigator will conduct a
closing conference with the complainant after completion of the investigation (after
discussion of the case with the supervisor and Solicitor of Labor as necessary). A
thorough, tactful closing conference is a valuable step to achieve a successful
conclusion to an investigation. Assuring the complainant that his or her concerns have
been fully explored and the investigative findings impartially evaluated will minimize the
likelihood of appeals or objections, even though the complainant may not be totally
satisfied or in agreement with the determination. The closing conference also allows the
complainant another opportunity to offer new evidence or witnesses. During the closing
conference, the investigator must inform the complainant of his rights to appeal or
objection under the appropriate statute, as well as the time limitation for filing the appeal
or objection.

Although the FIR for the first investigation referenced two conversations with the
complainant in the “Closing Conference” section, there was no evidence that the
investigator discussed OSHA’s determination with the complainant, informed him of his
right to file an appeal, or gave him an opportunity to offer new evidence or witnesses
during either of these conversations. In the second investigation, the investigator left a
message for the complainant indicating that OSHA was sending his file to the RSOL
and asked if there was anybody the complainant wanted OSHA to interview. There was
no evidence that the complainant got the message, that the investigator explained why
OSHA was sending the case to the RSOL, or what OSHA’s determination was, or that
the complainant was informed of his right to file an appeal. In addition, OSHA did not
issue its decision to dismiss the complaint until four months later, indicating that the field
investigation was not complete when the message was left.

Regional Office management acknowledged this issue and indicated that investigators
have been coached on conducting quality closing conferences, with emphasis on asking
complainants for any additional information or leads that can be pursued.

Supervision

There was no evidence that OSHA provided adequate supervision over the
investigations.

The Whistleblower Investigations Manual states that the supervisor is responsible for
providing guidance, assistance, supervision, and direction to investigators. The
supervisor will review the completed investigative case file to ensure technical accuracy,
thoroughness of the investigation, applicability of law, completeness of the report, and
merits of the case. Supervisory concurrence with the investigator’s analysis and
recommendations will be documented on the FIR or documented via memorandum to
the Regional Administrator (RA). Additionally, upon receipt of the case file from the
supervisor, the RA (or delegate) 2 will review the recommendations and the file, and sign


2
  According to the Whistleblower Investigations Manual, the RA may delegate his responsibilities but no lower than
the Assistant Regional Administrator or Area Director level.

                                                                                 OSHA Whistleblower Complaint
                                                         8                        Report No. 02-11-202-10-105
                                                     U.S. Department of Labor – Office of Inspector General



the appropriate letter of determination as prepared by the Supervisor or return the file
for further clarification or additional investigation as appropriate.

Supervisory concurrence with the investigator’s analysis and recommendations was not
documented on any of the FIRs or via memorandums to the RA. There was also no
evidence that the RA (or delegate) reviewed the file and recommendations because the
determination letters were signed by the RSI. Additionally, in the first investigation, there
was no evidence in the case file that the supervisor provided any guidance to the
investigator concerning the coverage issue that was brought to his attention by the
complainant.

Regional Office management acknowledged this issue and indicated that since the
region began restructuring the whistleblower program, supervision has dramatically
improved. Investigators have been coached to discuss all cases with the RSI. Also, the
RSI now signs off on all FIRs and cases have been returned to investigators for
additional work if all applicable leads have not been pursued.

Case Dismissal

OSHA exceeded its authority by dismissing the third complaint without conducting any
sort of investigation. OSHA accepted the complaint and immediately dismissed it to
allow the complainant an opportunity to consolidate the complaint with his previous
complaint which was appealed, dismissed by the OALJ, and awaiting review by the
ARB. According to an email from OSHA’s National Office to the RSI, OSHA did not
have statutory or regulatory authority to recommend consolidation without first
conducting an investigation to determine the merits of the complaint. Additionally, the
OALJ step in the appeals process cannot be bypassed for direct review to the ARB 3 .

The OSHA Whistleblower Investigation Manual allows a case to be dismissed if a
complaint is untimely or if the complainant does not present a prima facie case,
otherwise the investigator should proceed with a field investigation.

OSHA had no written policies and procedures to address consolidation of whistleblower
complaints. Neither AIR21 nor the regulations address complaint consolidation or allow
OSHA to consolidate complaints without first conducting an investigation.

The complainant, in the notes accompanying the documentation provided by the
Honorable Edolphus Towns, stated that he wanted a full investigation but the RSI said
that “this was the best way to handle it.”

Regional Office management acknowledged that it had made a mistake when it
dismissed this complaint. Consolidation had been done in the past at the OALJ level but
not the ARB level.

3
  When this complaint was reviewed by ARB, it denied the complaint consolidation because the OALJ had not issued
a recommended decision on the complaint.


                                                                              OSHA Whistleblower Complaint
                                                       9                       Report No. 02-11-202-10-105
                                          U.S. Department of Labor – Office of Inspector General




RECOMMENDATIONS

We recommend that the Assistant Secretary for Occupational Safety and Health
implement controls to require that supervisors review all complaints for coverage and
the presence of a prima facie allegation prior to beginning an investigation.

We appreciate the cooperation and courtesies that OSHA personnel extended to the
Office of Inspector General during this audit. OIG personnel who made major
contributions to this report are listed in Appendix E.




Elliot P. Lewis
Assistant Inspector General
 for Audit




                                                                OSHA Whistleblower Complaint
                                           10                    Report No. 02-11-202-10-105
            U.S. Department of Labor – Office of Inspector General




Exhibit 





                                  OSHA Whistleblower Complaint
             11                    Report No. 02-11-202-10-105
             U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK 





                                   OSHA Whistleblower Complaint
              12                    Report No. 02-11-202-10-105
                                                U.S. Department of Labor – Office of Inspector General



                                                                                                 Exhibit
Whistleblower Complaint Details




Whistleblower Complaint Details

                                    Complaint 1                  Complaint 2                 Complaint 3
Date Filed                             9/21/2005                    3/14/2008                   5/28/2009

                                                      Suspended after filing a
                                   Intimidated and        police report against      Fired for questioning
                                     threatened by       Bell-Textron Security    and reporting fraudulent
                                  government and      Administrator (related to       work (and history of
                           company personnel for      history of reporting non-             reporting non-
                          reporting improper work      compliance and safety       compliance and safety
Basis for Complaint                     procedures                  violations)                 violations)
                                     Dismissed –       Dismissed – Protected
                            Complainant suffered                 activity not a           Dismissed – To
                          no adverse employment          contributing factor in    consolidate complaint
OSHA Decision                              action                 suspension      with previous complaint
Current Status                            Closed         Awaiting ARB review                       Closed
Did OSHA conduct an
investigation?                                Yes                         Yes                          No
Did OSHA establish
employer coverage?                             No                          No                          No
Was an alleged                                                 Yes (filed prior            Yes (filed prior
protected activity                                              whistleblower               whistleblower
identified?                                    No                complaints)                 complaints)
Did OSHA conduct a
formal interview?                              No                          No                             *
Did OSHA corroborate
Bell-Textron’s defense?               Inadequate                           No                             *
Did OSHA give
complainant an
opportunity to refute?                Inadequate                   Inadequate                             *
Did OSHA conduct a
closing conference?                            No                          No                             *
Did OSHA provide
adequate supervision?                          No                          No                          No

* = Not applicable – no investigation was conducted.




                                                                         OSHA Whistleblower Complaint
                                                 13                       Report No. 02-11-202-10-105
             U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK





                                   OSHA Whistleblower Complaint
              14                    Report No. 02-11-202-10-105
               U.S. Department of Labor – Office of Inspector General




Appendices 





                                     OSHA Whistleblower Complaint
                15                    Report No. 02-11-202-10-105
             U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK 





                                   OSHA Whistleblower Complaint
              16                    Report No. 02-11-202-10-105
                                           U.S. Department of Labor – Office of Inspector General



                                                                                  Appendix A
Background

OSHA is responsible for enforcing and administering the whistleblower protection
provisions of 21 Federal statutes, including AIR21. The AIR21 statute protects
employees of air carriers from retaliation for having disclosed information to their
employer or to the government concerning “any violation or alleged violation of any
order, regulation or standard of the Federal Aviation Administration or any other
provision of Federal law relating to air carrier safety...”

A person filing a complaint of retaliation will be required to show that he or she engaged
in protected activity, the employer knew about that activity, the employer subjected him
or her to an adverse action, and the protected activity contributed to the adverse action.
Adverse action is generally defined as any action that would dissuade a reasonable
employee from engaging in protected activity.

Effective administration of the whistleblower program is integral to OSHA’s core
mission. If workers believe the system established by OSHA adequately protects them
from retaliation, they will be more willing to report violations. Likewise, if employers
believe they will suffer financial consequences for retaliating against whistleblowers,
they will be less likely to do so.

In September 2010, we reported that OSHA was not following its policies and
procedures in 77 percent of the investigations it conducted under 3 specific
whistleblower statutes and issued 6 recommendations to address weaknesses identified
in OSHA’s internal controls.

In August 2010, GAO reported similar internal control weaknesses in OSHA’s
Whistleblower Protection Program.




                                                                 OSHA Whistleblower Complaint
                                            17                    Report No. 02-11-202-10-105
             U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK





                                   OSHA Whistleblower Complaint
              18                    Report No. 02-11-202-10-105
                                           U.S. Department of Labor – Office of Inspector General



                                                                                  Appendix B
Objective, Scope, Methodology, and Criteria

Objective

The objective of the audit was to determine if OSHA conducted proper investigations of
whistleblower complaints filed by the complainant.

Scope

The audit examined three AIR21 whistleblower complaints that the complainant filed
with OSHA from September 2005 through May 2009, and covered OSHA policies and
procedures during that time period. The audit was limited to the investigations
conducted by OSHA and we did not review any appeals to the OALJ or ARB, nor did we
test the appropriateness of OSHA’s determinations. As such, our work should not be
construed as a comment on the merits of any of the complaints filed by the complainant.

We performed field work at OSHA headquarters in Washington, D.C., where we
reviewed the case files for the three complaints filed by the complainant. We also
reviewed documentation provided by the Honorable Edolphus Towns, the complainant’s
widow, and the Dallas Regional Office. We also interviewed OSHA management from
both the National Office and Dallas Regional Office and the complainant’s widow.

We conducted this performance audit in accordance with generally accepted
government auditing standards. Those standards require that we plan and perform the
audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
findings and conclusions based on our audit objective. We believe that the evidence
obtained provides a reasonable basis for our findings and conclusions based on our
audit objective.

Methodology

To accomplish our objective, we obtained an understanding of OSHA’s policies and
procedures governing whistleblower investigations under AIR21, and applicable laws
and regulations. We reviewed the three case files for compliance with OSHA’s
Whistleblower Investigations Manual. We also interviewed the complainant’s widow and
OSHA personnel at the national and regional levels, and reviewed other documents
related to the complainant’s whistleblower complaints.

Documents reviewed as part of the case file review included the complainant’s original
written complaints and rebuttals, memos-to-file, investigative reports, investigator notes,
e-mails, position statements and letters from Bell-Textron, notification and determination
letters, OALJ and ARB decisions, and internal agency communications.

In planning and performing our audit, we considered whether internal controls significant
to the audit were properly designed and placed in operation. This included reviewing

                                                                 OSHA Whistleblower Complaint
                                            19                    Report No. 02-11-202-10-105
                                           U.S. Department of Labor – Office of Inspector General



OSHA’s policies and procedures related to conducting whistleblower investigations. We
confirmed our understanding of these controls and procedures through interviews and
case file review and analysis. We evaluated internal controls used by OSHA for
reasonable assurance that investigations were conducted according to Federal
requirements and guidance. Our consideration of OSHA’s internal controls for
conducting investigations would not necessarily disclose all matters that might be
significant deficiencies. Because of inherent limitations in internal controls,
misstatements or noncompliance may nevertheless occur and not be detected.

Criteria

We used the following criteria to accomplish the audit objectives:

   •	 Wendell H. Ford Aviation Investment and Reform Act for the 21st Century 

      (AIR21), 49 U.S.C. §42121 

   •	 OSHA Directive Number: DIS 0-0.9, Whistleblower Investigations Manual, 

      August 22, 2003 

   •	 Secretary’s Orders 5-2002 & 5-2007 – Delegation of Authority and Assignment of
      Responsibility to the Assistant Secretary for Occupational Safety and Health
   •	 29 CFR Part 1979 - Procedures for the Handling of Discrimination Complaints
      under Section 519 of the Wendell H. Ford Aviation Investment and Reform Act
      for the 21st Century




                                                                 OSHA Whistleblower Complaint
                                            20                    Report No. 02-11-202-10-105
                                         U.S. Department of Labor – Office of Inspector General



                                                                                Appendix C
Acronyms and Abbreviations



               Wendell H. Ford Aviation Investment and Reform Act for the 21st
AIR21
               Century
ARB            Administrative Review Board

Bell-Textron   Bell Helicopter Textron

CFR            Code of Federal Regulations

DCMA           Defense Contract Management Agency

FAA            Federal Aviation Administration

FIR            Final Investigation Report

GAO            Government Accountability Office

OALJ           Office of Administrative Law Judges

OSHA           Occupational Safety and Health Administration

RA             Regional Administrator

RSI            Regional Supervisory Investigator

RSOL           Regional Solicitor of Labor

U.S.           United States




                                                               OSHA Whistleblower Complaint
                                            21                  Report No. 02-11-202-10-105
             U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK





                                   OSHA Whistleblower Complaint
              22                    Report No. 02-11-202-10-105
                                                         U.S. Department of Labor – Office of Inspector General



                                                                                                          Appendix D
OSHA Response to Draft Report




      u.s. Department of Lebor                 AssIstant Secletary b
                                               OccupatlQl'W Safaly 81"(1 HGaI\t1
                                               Vvil$hr-.gt<;>"l, D.C 202tO



             MAR 31 2011


         MEMORANDUM FOR:               ELLIOT P. LEWIS
                                       Assistant Inspector General for Audit



         FROM:                       1:i~~
         SUB1ECT:                     Response to OIG's Draft Audit Report No. 02·11-202-10-105
                                      ··Whistlcblowcr Protection Program Complaint"

         This memorandum is in response to your March 21, 2011, transmittal of the Office of Inspector
         General (OIG) Audit Report No. 02- 1 1-202· 10- 105, ··Whis\!eblowcr Protection Program
         Complaint" The Agency app reciates the opportunity to submit a statement in rcsponse to this
         report. As you know, the Agency is committed 10 improving this program.

         In FY 2010, OS HA completed the init ial draft. report on the top.to-bottom audit orlhl::
         whistleblowcr protection program. In FY 201 1, after the report and accompanying
         recormncndations are finalized, OSHA wi !1make any chlLnges necessary to address the
         weaknesses and inefficiencies in the operation of the program, including programmatic changes
         to ensure consistency and improved program delivery and possibly restructuring the Office of the
         Whistleblower Protection Program. r assured you that the results o f your prior comprehensive
         evaluation of the program (Audit Report No. 02-10·202-10-105) would be addressed in this
         process. Likewise, our plan will incorporate your latest recommendation, discllssed below.

         Recommendlllion: 'Ve recolllmend that th e Assistant Secretary for OccupatioLLal Safety
         and Health implcmcnt cont rols to require that supervisors review all complaints for
         covCl"age and the presence of a prima/llcie a llegation IJrior to beginning an investiga tion.
         OSHA Res ponse : I intend to implement such controls. The WMslleblowcr Inresligaliol1s
         Mallual. which will be issued in the coining weeks, will include such supcrvisory review as a
         step in the intake process. In addition, the training we provided to all users when we
         implemented the recent change to the Whistleblower application in the Integrated Managelllcnt
         Infom1a!ion System (1M IS) should reinforce this requirement. We stated in the training that
         decisions on whether to docket and investigate complaints under three statutes must be reviewed
         and approved by supervisors.

         OSHA apprcciatcs the opportunity to COmment on the report.




                                                                                   OSHA Whistleblower Complaint
                                                           23                       Report No. 02-11-202-10-105
             U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK





                                   OSHA Whistleblower Complaint
              24                    Report No. 02-11-202-10-105
                                         U.S. Department of Labor – Office of Inspector General



                                                                                Appendix E
Acknowledgements

Key contributors to this report were Mark Schwartz and Steve Sovich.




                                                               OSHA Whistleblower Complaint
                                          25                    Report No. 02-11-202-10-105
TO REPORT FRAUD, WASTE OR ABUSE, PLEASE CONTACT:

Online:   http://www.oig.dol.gov/hotlineform.htm
Email:    hotline@oig.dol.gov

Telephone:      1-800-347-3756
                202-693-6999

Fax:            202-693-7020

Address: Office of Inspector General
         U.S. Department of Labor
         200 Constitution Avenue, N.W.
         Room S-5506
         Washington, D.C. 20210
